IN THE SUPREME COURT OF THE UNITED STATES

No.

LEVIAN PACHECO PACHECO,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
I, Keith James Hilzendeger, a member of the Bar of this Court, certify that the
petition for a writ of certiorari filed in this matter on April 7, 2021, contains 4,775 words,
excluding the parts of the petition exempted under Rule 33.1(d).
Respectfully submitted:

0

KtEITH JAMES HILZENDEGER
Counsel of Record
Assistant Federal Public Defender
850 West Adams Street, Suite 201
Phoemx, Arizona 85007

(602)382-2700 voice
keith_hilzendeger@fd.org
Counsel for Petitioner

